           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of the                                     Date:    September 13, 2007
           Report on Controls Over the Enterprise Service
           Center’s Delphi Financial Management System
           Report No. QC-2007-072

  From:    Rebecca C. Leng                                                        Reply to
                                                                                  Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Assistant Secretary for Budget and Programs/
            Chief Financial Officer

           This report summarizes the results of the review of system security controls over
           the Department of Transportation (DOT) Enterprise Service Center’s (ESC)
           Delphi Financial Management System. ESC performs accounting and financial
           management functions for DOT and other Federal organizations. The system is
           maintained by Federal Aviation Administration employees at the Mike Monroney
           Aeronautical Center in Oklahoma City, Oklahoma.

           ESC is one of four Federal Service Providers designated by the Office of
           Management and Budget (OMB) to provide financial management information
           system services to other governmental agencies. In addition to serving DOT, ESC
           supports other Federal entities─the National Endowment for the Arts, Institute of
           Museum and Library Services, and the Commodity Futures Trading Commission.1
           OMB requires Federal Service Providers to obtain an independent audit in
           accordance with the American Institute of Certified Public Accountants’ (AICPA)
           Statement of Auditing Standards.

           This year’s audit of the DOT ESC Delphi Financial Management System was
           completed by Clifton Gunderson, LLP, of Calverton, Maryland, under contract to
           the Office of Inspector General. We performed a quality control review of the
           audit work to ensure that it complied with applicable standards. These standards
           include the Generally Accepted Government Auditing Standards and AICPA’s


           1
               The Government Accountability Office will be a new customer of the ESC beginning October 1, 2007.
                                                                                                                   2


Statement on Auditing Standards 70. In our opinion, Clifton Gunderson’s audit
work complied with applicable standards.

The Clifton Gunderson audit report concluded that management’s description of
controls for the Delphi Financial Management System presents fairly, in all
material respects, the controls that had been placed in operation as of May 31,
2007. In addition, the independent auditor concluded that controls, as described,
are suitably designed and were operating effectively from October 1, 2006,
through May 31, 2007, for all stated control objectives except logical access
control. 2

Specifically, Clifton Gunderson found that management has not completed the
planned corrective actions to provide reasonable assurance that safeguards for
logical access controls have been established to prevent or detect unauthorized
access.

    • Logical Access Controls Were Not Suitably Designed. Last year, the auditors
      reported that computer network architecture and vulnerability assessment
      methodology were not suitably designed to provide adequate logical access
      controls. 3 Specifically, the Delphi database server resides in a shared network
      that is not fully controlled by ESC staff. Therefore, ESC’s assessments could
      not ensure that all known vulnerabilities were identified and corrected.
      Management should implement protection mechanisms to limit access to
      Delphi servers by other Aeronautical Center system users. Otherwise, other
      systems on this network, if not properly secured, could become an entry point
      of unauthorized access to the Delphi Financial Management System.

        During fiscal year 2007, management made progress in isolating the Delphi
        Financial Management System servers and related resources on the network.
        However, the main Delphi servers are not scheduled to move into a better
        secured environment until May 2008.

    • Logical Access Controls Were Not Operating Effectively. Logical access
      controls were not operating with sufficient effectiveness in the areas of
      vulnerability assessment, workstation administration, and intrusion detection
      and reporting. ESC management needs to enforce better control practices in
      these areas.

Gunderson made eight recommendations to DOT management for improving
access controls. We agree that implementing these recommendations would
further enhance controls over operations of the Delphi Financial Management
2
     The independent auditor’s report is available upon request to current and prospective Delphi user organizations.
3
    “Quality Control Review of the Report on Controls over the Delphi Financial Management System,” Report Number
     QC-2006-076, September 29, 2006. OIG reports can be found on our website: www.oig.dot.gov.
                                                                                3


System. The recommendations are listed in the Exhibit to this report. In an
August 30, 2007, response to the Office of Inspector General, the DOT Deputy
Chief Financial Officer concurred with the recommendations and committed to
implementing corrective actions (see Appendix).

In accordance with DOT Order 8000.1C, the corrective actions taken in response
to Gunderson’s recommendations are subject to audit follow-up. Gunderson is
performing additional testing and will provide a follow-up management letter to
the Office of Inspector General, reporting whether the control environment has
changed significantly between June 1, 2007, and September 30, 2007. After
receiving Gunderson’s follow-up letter, we will decide whether additional support,
including target completion dates, is needed for the corrective actions.

We appreciate the courtesies and cooperation of ESC, the Office of the Secretary
of Transportation, and Clifton Gunderson representatives during this audit. If you
have any questions concerning this report, please call me at (202) 366-1496 or
Edward Densmore, Program Director, at (202) 366-4350.



                                        #

cc: Chief Information Officer, DOT
    Assistant Administrator for Financial Services/CFO, FAA
    Assistant Administrator for Information Services/CIO, FAA
    Assistant Administrator for Region/Center Operations, FAA
    Director, Mike Monroney Aeronautical Center, FAA
    Martin Gertel, M-1
    Anthony Williams, ABU-100
                                                                                                   4



EXHIBIT. RECOMMENDATIONS OF CLIFTON GUNDERSON, LLP,
INDEPENDENT AUDITOR
The following recommendations were made by Clifton Gunderson, LLP, in its
2007 independent auditor report on the DOT ESC Delphi Financial Management
System. DOT Management should implement the following actions to enhance
Delphi logical and physical access controls.

                                    LOGICAL ACCESS
1. Ensure that the certification agent in the security certification and accreditation process of the
   Systems Maintenance Facility (SMF) general support system is an individual, group, or
   organization that retains an appropriate level of independence and remains free from conflicts
   of interest.

2. Complete implementing the security enclave that would separate the Delphi servers by
   placing the servers on their own internal Internet Protocol network. Access to this network
   should be controlled by firewalls and monitored by intrusion-detection software. In the short
   run, coordinate patch management and other security features for all agencies that own
   hardware/software in the Mike Monroney Aeronautical Center data center.

3. Follow DOT and FAA guidelines in determining the level of alerts to be reported to ESC.
   They should review the current alert thresholds set by the Computer Security Incident
   Response Center and ensure the IDS is configured based on the Internet Access Point
   Administrator’s recommendations for the ESC’s environment.

4. Conduct network (internal and external) scans periodically, including scans of System
   Administrator workstations and terminals. To the extent possible, alternate or rotate scanning
   software and perform full scans at least quarterly or semi-annually, as resources may permit.


                                      PHYSICAL ACCESS
5. Update SMF documentation to reflect the current responsible parties for administering the
   SMF.

6. Perform fire drills so personnel are aware of physical security measures and exit procedures.

7. Perform an analysis of all employees with access to the data center and document the
   justification for this access. Review access frequently and remove permanent access for
   employees who do not need this access in the daily execution of their duties.

8. Review and assess management progress in implementing closed circuit TV cameras in the
   Multi-Purpose Building (housing the data center).




Exhibit. Recommendations of Clifton Gunderson, LLP, Independent
Auditor
                                                                                          5


APPENDIX. MANAGEMENT COMMENTS


                                     August 30, 2007


MEMORANDUM TO:                Rebecca C. Leng
                              Deputy Assistant Inspector General
                              for Information Technology and Computer Security

FROM:                         Lawrence I. Neff
                              Deputy Chief Financial Officer

SUBJECT:                      Management Response to the Information Security
                              Audit of the Delphi Financial Management System


Thank you for the Statement on Auditing Standards (SAS) 70 audit of the Department’s
Delphi Financial Management System, which is hosted and operated by the Enterprise
Services Center (ESC) in Oklahoma City. We appreciate the Office of Inspector
General's (OIG) coordination, oversight, and Quality Control Review of Clifton
Gunderson's SAS-70 audit of Delphi.

We concur in the recommendations and have identified corrective actions to address them
(copy attached). As in the past, we have worked closely with the auditors throughout this
year’s SAS-70 audit to ensure that as any issue was raised, corrective action was taken
immediately to mitigate risks and to strengthen Delphi's security controls. Corrective
actions already taken to enhance Delphi security in response to this year’s SAS-70 audit
include:

   We have implemented a quarterly full port scan of the Delphi servers. The first full
    port scan was conducted on June 23 and the next scan is scheduled for September 22.
    These full port scans are in addition to the many different vulnerability scans that are
    conducted each month as part of our standard operations, including: (1) twice weekly
    scans on the Demilitarized Zone (DMZ) hardware, (2) bi-weekly scans on all Delphi
    servers using Foundstone, and (3) quarterly scans on all Delphi servers using Nessus.

   All workstations used by Delphi System Administrators, Database Administrators and
    Application Administrators have had static IP addresses assigned. Vulnerability
    scans are performed quarterly to ensure that no inappropriate or unpatched software
    has been installed.

The following additional corrective action is currently underway:

   The majority of the Delphi servers have been moved to a separate IP address space
    (enclave) to facilitate external customer access to the Delphi System. We will move
    the Delphi production cluster to this enclave as well when we implement our next
    major hardware upgrade in May 2008.


Appendix. Management Comments
                                                                                         6



   Although the Delphi database server currently resides logically in a non-segmented
   network that is not fully controlled and managed by ESC personnel, this network
   is a trusted internal government network, which helps mitigate risks. The existing
   internal network architecture provides standard government IT security protection
   and controls, such as firewalls and Intrusion Detection Systems (IDS). In addition,
   the DOT and FAA IT security programs provide for Certification and Accreditation
   (C&A) of systems, rules of behavior, frequent vulnerability scanning, etc.

   The same controls are applied to systems in the DMZ, which provides an additional
   layer of network-based firewall protection to segment the DMZ from the internal
   government network. These protective measures are consistent with industry best
   practices and comply with Federal, DOT and FAA security program requirements
   and guidance.

   The ESC has been preparing for some time to upgrade the Delphi infrastructure
   and hardware to leverage newer, more cost-effective technologies. As part of this
   upgrade in May 2008, the newly-configured database cluster will be logically isolated
   to reside in a Virtual Local Area Network (VLAN) with restricted access.

We appreciate the help you and your staff have provided through the SAS-70 process as
we have continued to strengthen the design and implementation of all security controls
for Delphi every year, and we look forward to your continuing help and support.

As a Federal Shared Service Provider (FSSP) designated by the Office of Management
and Budget (OMB) to provide a state-of-the-art financial system and quality accounting
services to other Federal agencies, we are fully committed to ensuring that the Delphi
Financial Management System meets or exceeds all information security requirements.

Thank you for your continuing support and assistance in this effort.

Attachment: Corrective Action Plan

cc:
Joann Adam, Phill Loranger, Laurie Howard, Wynne Davis, Hunter Phelps, Arvid
Knutsen, Wendy Calvin, Lindy Ritz, Stan Sieg, Marshal Gimpel, Sara Smith, Keith
Burlison, Sandra Schreiner, Jacque Estes, Cheryl Rogers, Mike Myers, Laura Ramoly,
Robert Stevens




Appendix. Management Comments
                                                                                     7


                                                                         Attachment

                        Corrective Action Plan
                For the FY 2007 SAS-70 Audit of Delphi

NFR #CO-2:

Recommendation 1. We recommend that the ESC Management ensure that
the Certifications Agent/s in the Security Certification and Accreditation process
of the SMF general support system is an individual, group or organization that
retain/s an appropriate level of independence and remain/s free from conflicts
of interest.

       Management concurs with this recommendation. The ESC does assure
       that the SMF is certified by an independent organization that has no
       responsibilities for the development, maintenance, support or oversight
       of the systems they certify, as required by FISMA. To alleviate the
       appearance of any conflict of interest, per the signatures identified on
       the certification package reviewed by the auditors, ESC will coordinate
       a request to the ARC Information Systems Security Manager (ISSM)
       for appropriate changes to the template by September 28, 2007.


Recommendation 2. ESC Management should complete implementing the
security enclave that would separate the Delphi servers by placing the servers
on their own internal IP network. Access to this network should be controlled by
firewalls and monitored by IDS. In the short run coordinate patch management
and other security features for all agencies that own hardware/ software in the
MMAC data center.

       Management concurs with this recommendation. The majority of Delphi
       servers have already been moved to a separate IP address space
       (enclave) to facilitate external customer access to the Delphi System;
       the remaining servers will be moved to this enclave when the Delphi
       hardware is upgraded in May 2008. Combining completion of the security
       enclave with the hardware upgrade provides the greatest benefits for the
       costs required. Access to this enclave is initially being controlled utilizing
       Access Control Lists (ACLs). A determination on the addition of enclave
       firewalls, based on cost versus added security benefit, will be made by the
       Delphi Authorizing Official. In the interim, we will continue to coordinate
       patch management and other security features for all agencies that own
       hardware/software in the MMAC data center through our service provider
       agreements.




Appendix. Management Comments
                                                                                 8


Recommendation 3. ESC Management should follow DOT and FAA guidelines
in determining the level of alerts to be reported to ESC. They should review the
current alert thresholds set by CSIRC and ensure the IDS is configured based on
the Internet Access Point Administrator’s recommendations for the ESC’s
environment.

      Management concurs with this recommendation. ESC has controls in
      place, in accordance with DOT & FAA orders, to prevent unauthorized
      scanning and intrusion. Per FAA order1370.90, ESC perimeter routers
      limit CSIRC’s view of the full impact of external scans; therefore, CSIRC
      would only see a small subset of the scanning activity performed for the
      SAS-70 audit, and because no improper access was attempted, this did
      not trigger any alerts (in addition, ESC ACLs are configured to block entire
      subnets known for inappropriate behavior). The MMAC Internet Access
      Point Administrator will review the current alert thresholds and ensure the
      IDS is correctly configured by August 17, 2007.


Recommendation 4. Conduct network (Internal and External) scans periodically
including scans of System Administrator workstations and terminals. To the
extent possible, alternate or rotate scanning software and perform full scans at
least quarterly or semi-annually as resources may permit.

      Management concurs with this recommendation. A quarterly full port
      scan, alternating scanning software, of Delphi servers has been
      implemented. The first scheduled full port scan was performed on June
      23, 2007. The next scan is scheduled for September 22, 2007. These full
      port scans are in addition to the numerous vulnerability scans that are run
      throughout the month on DMZ hardware (twice weekly) and all Delphi
      servers (bi-weekly and quarterly scans utilizing alternate scanning
      software). In addition, all System Administrator, Database Administrator
      and Application Administrator workstations have had static IP addresses
      assigned, and vulnerability scans are performed quarterly to identify if
      inappropriate, unpatched software is installed. The most recent
      administrator workstation scan occurred on July 25, 2007.

NFR #CO-3:

Recommendation 1. ESC Management should update SMF documentation to
reflect the current responsible parties for administering the SMF.

      Management concurs with this recommendation. The SMF ISSP was
      updated in April 2007 as part of the SMF’s annual FISMA Assessment.
      Appropriate SMF documentation will be updated in the future, as
      significant changes occur.




Appendix. Management Comments
                                                                                9



Recommendation 2. Fire drills should be performed so personnel are aware of
physical security measures and exit procedures.

      Management concurs with this recommendation. The most recent fire drill
      was held on May 31, 2007. ESC will coordinate with MMAC Facility
      Maintenance to ensure routine fire drills are performed in a timely manner.


Recommendation 3. Perform an analysis of all employees with access to the
data center and document the motive for this access. Review access frequently
and remove permanent access for employees who do not need this access in the
daily execution of their duties.

      Management concurs with this recommendation. An analysis of employee
      access to the data center will be completed by August 31, 2007. In
      addition, regularly scheduled quarterly access reviews of employee
      access to the data center will continue. The next data center quarterly
      access review will be completed by September 30, 2007.


Recommendation 4. Review and assess Management progress in
implementing closed circuit TV cameras in the Multi Purpose Building (housing
the data center).

      Management concurs with this recommendation, which will be
      implemented in conjunction with other enhancements to the data center.




Appendix. Management Comments
